OIG Investigative Reports, Oklahoma City, OK., August 26, 2013 - Indictment Unsealed Charging Three Midwest City Women with Conspiracy to Defraud OKC Schools Tutoring Program
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
THE UNITED STATES ATTORNEY'S OFFICE
WESTERN DISTRICT OF OKLAHOMA
NEWS
Indictment Unsealed Charging Three Midwest City Women with Conspiracy to Defraud OKC Schools Tutoring Program
FOR IMMEDIATE RELEASE
August 26, 2013
Oklahoma City, Oklahoma – A federal indictment was unsealed today charging three Midwest City women with conspiracy to defraud the U.S. Department of Education by making false claims for payment for tutoring sessions of students attending Oklahoma City Public Schools, announced Sanford C. Coats, United States Attorney for the Western District of Oklahoma. The three women charged are REBECCA E. COTTON, 42, PATRICIA R. BURNS, 71, and BOBBIE J. DAILEY, 62, all from Midwest City, Oklahoma.
As part of the No Child Left Behind Act of 2001, the U.S. Department of Education provided funding for extracurricular tutoring to eligible students at eligible schools. Eligible schools were those designated by the state to be in need of improvement, and student eligibility was determined by family income. The Oklahoma City Public Schools District ("OKCPS") offered this tutoring program to eligible students at U.S. Grant High School and Roosevelt Middle School. OKCPS required tutoring providers to record student attendance at tutoring sessions on paper rosters and on a computer database which, in turn, was used to generate invoices that the tutoring providers submitted to OKCPS for payment.
It is alleged that during the 2009-2010 school year, Burns, with the assistance of her daughter, Cotton, owned and operated A Plus Academics, LLC ("A Plus"), a business providing academic tutoring to school children. It is alleged that during this same year, Cotton owned and operated Foundations Tutoring, LLC ("Foundations"), a business that also provided academic tutoring to school children. A Plus and Foundations shared office space at 608 Askew Drive, in Midwest City. For 2009-2010, both A Plus and Foundations were state-approved tutoring providers having contracts with OKCPS to provide tutoring services. A Plus primarily tutored students at U.S. Grant High School. Foundations primarily tutored students at Roosevelt Middle School. Both companies hired teachers at the respective schools as tutors. It is alleged that during the 2009-2010 school year Dailey was employed at U.S. Grant High School as a counselor and also as an A Plus tutor and "liaison" between A Plus and U.S. Grant High School.
The indictment alleges that during the 2009-2010 school year, Burns, Cotton, and Dailey instructed tutors at U.S. Grant High School to complete and sign student attendance rosters for tutoring sessions that did not, in fact, take place. It is alleged that Dailey herself completed and signed student attendance rosters for tutoring sessions that did not take place. It is alleged that Cotton and one of the employees of Foundations instructed tutors at Roosevelt Middle School to complete and sign attendance rosters for tutoring sessions that did not, in fact, take place.
It is further alleged that Cotton entered the false attendance information into the computer database used by OKCPS. Burns and Cotton allegedly used this false information to generate invoices, which were submitted to OKCPS for payment. For the 2009-2010 school year, OKCPS paid A Plus $884,548.13 and paid Foundations $351,621.00 for tutoring services.
The indictment alleges eight counts. Count 1 charges Cotton, Burns, and Dailey with conspiracy, for which each face up to five years in prison. Counts 2-4 charge Cotton, Burns, and Dailey with making false statements, for which each face up to five years in prison. Count 5 charges Cotton with making false statements, for which she faces up to five years in prison. Count 6 charges Cotton with wire fraud for which she faces up to 20 years in prison. Count 7 charges Cotton with money laundering for which she faces up to ten years in prison. Count 8 charges Cotton with aggravated identity theft for which she faces up to an additional mandatory two years in prison. All counts also include a potential fine of $250,000. The public is reminded that the indictment is merely an accusation and that the defendants are each presumed innocent unless and until proven guilty. Reference is made to the indictment for further information.
This case is the result of an investigation by the Internal Revenue Service Criminal Investigation, the U.S. Department of Education, and the Economic Crimes Task Force, and is being prosecuted by Assistant U.S. Attorneys Amanda Maxfield Green and Chris M. Stephens.
Top
Printable view
Last Modified: 08/30/2013
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov